                                    NATIONAL SCIENCE FOUNDATION
                                     OFFICE OF INSPECTOR GENERAL
                                       OFFICE OF INVESTIGATIONS




Subject: Closeout Memo


     There was no closeout written at the time this case was closed. The following information was
     extracted fiom the file in conformance with standard closeout documents.

     Our office was informed that the subject' was alleged to have submitted false statements for credit
     and omitted prior conviction on federal application and appointment documents. The subject
     resigned fiom NSF after being notified that he would be terminated. The subject was sentenced to
     four years by Virginia for forging state court documents. The subject was sentenced to twenty-one
     months (consecutively) for bank fraud.

     The attached documents constitute the closeout for this case.




      Joseph Johnson, Jr.
                    UNITED STATES OF AMERICA, Plaintiff-Appellee, v. JOSEPH                   '
                                                                                  '
                      JOHNSON, JR., a/k/a Joseph R. Johnson, a k l a Joe Johnson,
                                      Defendant-Appellant.

                                                     IV-0. 96-4868     ,   I                  r

R                                                                                                             i

                    UNITED STATES COURT OF APPEALS FOR THE FOURTH
                                      CIRCUIT
 1'
                                                                                                              t

                                          1998 U.S. App. LEXIS 13469

                                         April 30, 1998, Submitted
                                                                               - . .
                                           June 24, 1998, Decided

      NOTICE:                      I


       ["I] RLTLES OF THE FOURTH CIRCUIT COURT OF APPEALS MAY LIMIT
      CITATION T O UNPUBLISHED OPINIONS. PLEASE REFER T O THE RLTLES OF THE
      UNITED STATES COURT OF APPEALS FOR THIS CIRCUIT.

      SUBSEQUENT HISTORY: .
      Reported in Table Case Format at: 1998 U.S. App. LEXIS 26464.

      PRIORHISTORY:             '                                         .             t
                                                                                                      I



      Appeal from the United States District Court for the Eastern District of Virginia, & a t
      Alexandria. T. S. Ellis, 111, District Judge. (CR-96-180-A). ,

      DISPOSITION:         ,

      AFFIRMED.                                                                                   .       .


      COUNSEL:                               I   _




 5    James K. Bredar, Federa1,Public ~ e f e n d e r Beth
                                                      ,    M. Farber, Chief ~ s s i s t a n Federal
                                                                                            t       Public
      Defender, Baltimore, Maryland, for Appellant.
-4
      Thomas Gerard Connolly, OFFICE OF THE UNITED STATES ATTORNEY, Alexandria,
      Virginia, for Appellee.
          . ,
      JUDGES:
      Before HAMILTON, LUTTIG, and MICHAEL, Circuit Judges.

      OPINION:
   OPINION
   PER CURIAM:
   Joseph Johnson, Jr., pled guilty to providing false statements to a financial institution in
violation of 18 U.S.C. 9 1014 (1994). Johnson received a sentence of twenty-one months'
imprisonment and three years of supervised release. He appeals his conviction and sentence.
Johnson's attorneys have filed a brief in accordance with Anders v. California, 386 U.S. 738,
18 L. Ed. 2d 493, 87 S. Ct. 1396 (1967)) raising four issues but stating that in their view
there are no meritorious issues for appeal. * The issues raised [*2] by Johnson's counsel are
without merit. After a review of the record, we affirm the judgment.



   * Johnson has been informed of his right to file a pro'se supplemental brief, but failed to
file a timely brief after being granted two extensions by the court. The court denied a third
extension. We deny Johnson's motion for leave to file his untimely pro se supplemental brief.



    Johnson first alleges that the Interstate Agreement on Detainers Act (IAD) was violated
when he was returned to state custody after he had been placed in federal custody in
connection with the federal charges pending in this case. At the time that the federal
charges in this case were instituted, Johnson was serving a state sentence. The Government
issued a writ to bring him into federal custody for arraignment. The Government then filed a
motion to remand Johnson into temporary federal custody while this case was pending under
the Interstate Agreement on Detainers Act, 18 U.S.C. app. 2 (1994). The district court
granted the motion. Johnson [*3] then filed a motion for a transportation order requesting
that he be returned to the state system so that he could continue to earn good time credits
while awaiting trial. The court granted the motion.
   By filing the motion for a transportation order requesting that he be returned to the state
system, Johnson waived any rights or protections that he may have had under the IAD. A
prisoner waives his rights when he requests treatment in a manner inconsistent with the
provisions of Article IV(c) or (e) of the IAD. See United States v. Odom, 674 F.2d 228, 230
(4th Cir. 1982); Webb v. Keohane, 804 F.2d 4.13, 414-15 (7th Cir. 1986) (noting that all
circuits that have reached the issue have held that rights under the IAD are waived by a
prisoner's request to be returned to his original place of imprisonment). In addition, other
circuits have held that a defendant who pleads guilty also waives any claim he would have
had under the IAD. See Baxter v. United States, 966 F.2d 387, 389 (8th Cir. 1992);
Kowalak v. United States, 645 F.2d 534, 537 (6th Cir. 1981).
    Johnson next alleges that the district court erred in refusing to allow him to withdraw his
guilty plea. During the sentencing [*4] proceeding, Johnson made an oral pro se motion to
withdraw his guilty- plea. In support of his motion, Johnson asserted that: (1) the
Government threatened to enhance his sentence if he insisted upon a jury trial, (2) he
feared the consequence of not pleading guilty because he was already serving asfive-year
sentence,, (3) his attorney told him that he would receive a two-point enhancement for
perjury if he, went to trial, (4) but for his counsel's errors, he would have insisted upon a jury
trial, (5) if he knew that the court would,consider during sentencing an offense he
committed during the pendency of the federal charges he would not have pled guilty, and
(6) he was not guilty of the offense in count one. The court denied the motion and found
that, all Johnson's claims were "palpably false," and that during the Fed. R. Crim. P. 11
hearing, Johnson answered questions regarding coercion and did not raise these issues.
    Rule 32(d) of the Federal Rules of Criminal Procedure governs a motion to withdraw a
guilty plea. Johnson bears the burden to show a fair and just reason for the withdrawal. See
United States v. Moore, 931 F.2d 245, 248 (4th Cir. 1991). Factors relevant to establishing
[*5] a fair and just reason include:                                               !I




(1) whether the defendant has offered credible evidence that his plea was not knowing or
not voluntary, (2) whether the defendant has credibly asserted his legal innocence, (3)
whether there has been a delay between the entering of the plea and the filing of the motion,
(4) whether defendant has had close assistance of competent counsel, (5) whether with
drawal will cause prejudice to the government, and (6) whether it will inconvenience the
court and waste judicial resources.                                                     $




Id. This court reviews the denial of a motion to withdraw a guilty plea for abuse of
discretion. See United States v. Lambert, 994 F.2d 1088, 1093 (4th Cir. 1993). The district
court's factual findings in support of its decision to deny the motion will be overturned only
if they are clearly erroneous. See United States v. Suter , 755 F.2d 523,525 (7th Cir. 1985).
   Johnson did not offer any evidence of threats, fear, coercion, his counsel's errors, or his
innocence. Further, Johnson should have known about these issues at the time of the Rule
11 colloquy. He did not assert any of these claims during the hearing and acknowledged that
he was entering into [*6] the agreement knowingly and voluntarily. We therefore find that
Johnson did not meet his burden of demonstrating a fair and just reason for the withdrawal.
See Moore, 931 F.2d at 248.
    Third, Johnson alleges that the district court erred in finding that the fraudulent activity
alleged in the dismissed counts of the indictment was relevant conduct for the purposes of
the loss determination in sentencing. Johnson pled guilty to count one in the indictment.
The loss calculation used at sentencing was based upon conduct forming the charges in
counts four and five, which were dismissed after the court accepted the guilty plea. The
I
    court found that Johnson committed all the acts charged in the indictment, and Johnson did
    not object to the findings.
I
I      'District courts may take "relevant conduct" into account in determining a defendant's
    sentence whether or not the defendant has been convicted of the charges constituting the
    relevant conduct. See U.S. Sentencing Guidelines Manual 9 1B1.3 (1997); United States v.
    Jones, 31 F:3d 1304, 1316 (4th Cir. 1994). Whether the government has met its burden of
    proof is a question of fact reviewed for clear error. See Jones, 3 1 F.3d at 1316 [*7] (citing
    United States v. Daughtrey, 874 F.2d 213, 217 (4th Cir. 1989)). In assessing relevant
    conduct, the sentencing court should consider "'such factors as the nature of the defendant's
~   acts, his role, and the number and frequency of repetitions of those acts, in determining
    whether they indicate a behavior pattern."' United States v. Mullins, 97 1 F.2d 1138, 1144
    (4th Cir. 1992) (quoting United States v. Santiago, 906 F.2d 867, 872 (2d Cir. 1990)).
        All of the cdnduct attributed to Johnson for sentencing purposes was committed solely by
    him and showed a similarity of method and purpose. In addition, Johnson committed the
    acts within a few months of each other. Johnson pled guilty to attempting to fraudulently
I
    obtain a loan from a credit union using a false social security number and statement of
I   annual income. The conduct in count four involved Johnson applying for an automobile
!
    loan using a false social security number, date of birth, and the same false earning statement
    as in count one. Count five involved a similar scheme with similar misrepresentations, but
    made over the phone. Based upon these factors, we find that the court did not clearly err in
    finding that counts [*8] four and five should be included as relevant conduct.
        Finally, Johnson alleges that the district court erred in refusing to decrease his offense
    level based upon acceptance of responsibility. Johnson pled guilty after the opening
    statements in his trial. We review the district court's determination regarding acceptance of
    responsibility for clear error. See United States v. Curtis, 934 F.2d 553, 557 (4th Cir. 1991)
    (citing United States v. Harris, 882 F.2d 902, 905 (4th Cir. 1989)). The district court judge
    has great discretion in applying this adjustment. See United States v. White, 875 F.2d 427,
    430-3 1 (4th Cir. 1989). In determining whether the defendant is qualified for the reduction,
    the district court should consider whether the defendant truthfully admits the conduct
    comprising the offenses of conviction. See USSG 9 3E1.1, comment. (n. 1(a)); United States
    v. Martinez, 901 F.2d 374, 377 (4th Cir. 1990). Timeliness of acceptance is a factor to
    consider. See United States v. Jones, 31 F.3d 1304, 1315 (4th Cir. 1994). Entering a guilty
    plea does not automatically entitle a defendant to a reduction for acceptance of
    responsibility. See Harris, 882 F.2d [*9] at 905. In this case, Johnson pled guilty only after
    his trial began and then attempted to withdraw it during sentencing. Thus, we find that the
    district court did not clearly err in refusing to grant the reduction.
       We deny Johnson's counsel's motion for leave to withdraw. This court requires that
    counsel inform his or her client, in writing, of the client's right to petition the Supreme
    Court of the United States for further review. If the client requests that a petition be filed,
but counsel believes that such a petition would be frivolous, then counsel may move in this
court for leave to withdraw from representation. Counsel's motion must state that a copy
thereof was served on the client.
   We deny Johnson's motion to expedite as moot. We dispense with oral argument because
the facts and legal contentions are adequately presented in the materials before the court
and argument would not aid the decisional process.
   AFFIRMED
